U.S. Department of                                       The Inspector General          Office of Inspector General
Transportation                                                                          Washington, DC 20590
Office of the Secretary
of Transportation



February 23, 2009

The Honorable Patty Murray                                The Honorable John W. Olver
Chairman                                                  Chairman
Subcommittee on Transportation,                           Subcommittee on Transportation,
Housing and Urban Development, and                        Housing and Urban Development, and
Related Agencies                                          Related Agencies
Committee on Appropriations                               Committee on Appropriations
United States Senate                                      United States House of Representatives
Washington, DC 20510                                      Washington, DC 20515

The Honorable Christopher “Kit” Bond                      The Honorable Tom Latham
Ranking Member                                            Ranking Member
Subcommittee on Transportation,                           Subcommittee on Transportation,
Housing and Urban Development, and                        Housing and Urban Development, and
Related Agencies                                          Related Agencies
Committee on Appropriations                               Committee on Appropriations
United States Senate                                      United States House of Representatives
Washington, DC 20510                                      Washington, DC 20515

Dear Chairmen Murray and Olver and Ranking Members Bond and Latham:

This report presents our quarterly assessment of Amtrak’s year-to-date (through
December) fiscal year (FY) 2009 financial performance and operational reform
savings.1 In addition, it provides a final assessment of Amtrak’s FY 2008
operational reform savings. Amtrak’s operating loss through December totaled
$82.2 million, $26.1 million or 24.1 percent less than Amtrak originally
forecasted. Despite the softening economy, Amtrak is expected to end FY 2009
only slightly below its original forecast and does not require significantly
increased operating subsidies to meet its funding requirements. Finally, Amtrak
could take steps to improve its financial outlook. However, Amtrak has decided
not to implement any new operational reform initiatives in FY 2009 and has taken
no specific steps to curtail FY 2009 spending in light of economic conditions.

1
    Operational reform savings are defined as a reduction in operating costs or an increase in revenue.


CC-2009-042
                                                                                                          2


Key Issues

• Amtrak’s Projected Lower FY 2009 Revenues are Offset by Projected
  Lower Employee Benefit and Energy Costs. Amtrak lowered its FY 2009
  revenue projection by $169 million since our November report, primarily
  reflecting the economic recession. At the same time, Amtrak lowered its
  projected fuel costs by $165.4 million and employee benefit costs by
  $21.9 million. As a result, Amtrak projects a FY 2009 operating loss of $476
  million, only $1 million more than originally forecast.

• Amtrak Is Not Implementing Any FY 2009 Operational Reform Savings.
  Amtrak decided, 1 year ago, when it developed its FY 2009 budget not to
  pursue any reforms to improve its operating efficiency in FY 2009. Despite
  the significantly worsening economic conditions during the past year, Amtrak
  has not altered this decision. In addition, Amtrak has not taken any specific
  steps to curtail its planned FY 2009 expenditures.

• Amtrak Overstates Its FY 2009 Operating Subsidy Requirements. Amtrak
  is seeking a $114 million or 24-percent increase above the current Continuing
  Resolution (CR) level for Federal operating subsidy. Based on our analysis,
  Amtrak requires no more than an additional $40 million above the CR level to
  meet its FY 2009 operating requirements, make the FY 2009 retroactive wage
  payment, follow through on its decision to replace lenders on its defeased
  leases2 and have an adequate cash balance at the start of FY 2010.

Amtrak’s Financial Performance Through December Was Slightly
Better than Expected Despite a Softening Economy

Amtrak’s operating loss through December totaled $82.2 million, $26.1 million or
24.1 percent less than Amtrak originally forecasted. This amount primarily
reflects lower than expected revenues that were offset by even lower employee
benefit and fuel costs.

Total operating revenue through December was $612.0 million, $24.8 million or
3.9 percent less than originally forecasted. This decline reflects $39.1 million in
lower passenger related revenues, partially offset by $14.3 million in higher
reimbursable maintenance of way, commuter, and commercial revenues.
2
    A defeased lease is a financing transaction involving, in this case, Amtrak’s sale of rolling stock to a
    private equity firm which, in turn, leases the equipment back to Amtrak. Defeased leases permit the
    capture of tax benefits that otherwise could not be used. Amtrak is seeking to replace its third-party
    guarantor on all 12 of its defeased leases with a stronger lender. During the past year, a credit rating
    downgrade for one of Amtrak’s lenders put three of these transactions into technical default.


CC-2009-042
                                                                                       3


The lower passenger revenues reflects a 7.0 percent decline in passenger ticket
sales ($31.7 million), a 4.3 percent decline in food and beverage sales
($1.0 million), and a 14.4 percent decline in state supported train revenues
($6.4 million). The declines in passenger ticket and food and beverage revenues
reflect significantly lower ridership compared to Amtrak’s original forecast (see
table 1). For example, revenues for Amtrak’s Acela service were down
14.8 percent, or $19.6 million, on a 12.3 percent decline in ridership, and revenues
from the Northeast Regional service was down 9.7 percent, or $12.9 million, on a
9.0 percent decline in ridership. By contrast, Amtrak’s long distance service ticket
sales were up 4.9 percent, or $5 million higher than budget, reflecting a ridership
increase of 2.9 percent. In addition, revenues from state-supported services were
down 3.0 percent on a 2.4 percent ridership decline. The decline in state supported
train revenues primarily reflects a delay in signing contracts and receiving
payments from a number of large states. Amtrak forecasts that it will receive
these payments by the end of FY 2009.

        Table 1. Amtrak Ridership and Passenger Ticket Revenues
                  Actual vs. Budget (1st Quarter FY 2009)
                                     Ridership              Ticket Revenue ($ Thousands)
 NEC:                    Actual         Budget       %       Actual      Budget      %
                                                    Diff.                           Diff.
   Acela                  805,910         919,021   -12.3    $113,325    $132,934   -14.8
   Northeast Regional    1,809,032      1,987,697    -9.0    $120,003    $132,887    -9.7
 NEC Total               2,616,722      2,909,018   -10.0    $233,657    $266,121   -12.2
 State Supported /
 Corridors               3,360,610      3,442,095    -2.4     $92,194     $95,036    -3.0
 Long Distance           1,072,603      1,042,697     2.9    $106,603    $101,622     4.9
 Amtrak Total            7,049,935      7,393,810    -4.7    $432,454    $462,779    -6.6
Source: Amtrak.

Total operating expenses through December were $694.2 million or 6.2 percent
less than originally budgeted, driven by significant decreases in employee benefit
and fuel expenses. The lower employee benefit costs, which were $29.7 million or
24.0 percent less than budgeted, reflected both lower labor agreement health
benefit costs and lower Railroad Retirement Tax Act (RRTA) tax expenditures.
Amtrak attributes the lower health benefit costs, which were $14.2 million or
30.0 percent less than projected, to recent changes to AmPlan that resulted in
employees using fewer services than Amtrak had forecasted. Regarding RRTA
taxes, Amtrak overestimated the amount of these taxes it was required to pay.



CC-2009-042
                                                                                                                                                                           4

Also, Amtrak benefited from sharp declines in diesel fuel cost per gallon, as its
fuel expenses were 23.6 percent, or $24.3 million, lower than previously budgeted.

Amtrak’s Projected FY 2009 Operating Loss Is Not Expected to Grow
Significantly

Amtrak projects a FY 2009 operating loss of $476 million, only $1 million more
than originally forecast, despite significant projected changes in both revenues and
expenses (see figure 1).

                         Figure 1. Amtrak Actual vs. Budget FY 2009 Operating Loss

                           Oct     Nov        Dec         Jan       Feb         Mar         Apr            May         Jun          Jul            Aug         Sep
                     0
                            (28)      (42)
                          (31)                   (82)

                                   (62)
                                                            (154)
                                             (108)

                                                                       (218)
                  (200)
                                                        (178)
                                                                                   (256)
  $ in millions




                                                                    (240)
                                                                                                   (298)
                                                                               (279)                          (333)
                                                                                           (317)                          (357)

                  (400)                                                                                    (347)                          (390)

                                                                                                                      (365)       (390)                (424)
                                                                                                                                                  (423)
                                                                                                                                                                   (476)
                                                                                                                                                               (475)



                  (600)


                                                                Budget                       Actual                       Forecast


Source: Amtrak.

Amtrak reestimated both its revenue and ridership forecasts in light of the steep
decline in the economy since the FY 2009 budget forecasts were prepared last
summer. Amtrak now projects total FY 2009 revenues will be $2,378 million,
$169.1 million or 6.6 percent below the previous forecast. Passenger related
revenues are projected to be $184.5 million below the previous forecast—offset by
a projected increase of $15.0 million in ancillary revenues, that is, reimbursable
maintenance of way, commuter, and commercial revenues.

The lower projected passenger related revenues reflect a significantly lower
FY 2009 ridership forecast. Projected ridership in FY 2009 has been revised
downward by 9 percent, from 29.9 million to 27.2 million riders. As a result,
ridership is projected to be 5 percent below FY 2008 levels, the first decline in



CC-2009-042
                                                                                 5

overall ridership since FY 2006. Additionally, Amtrak has decided not to go
forward with a number of planned pricing actions.

Amtrak’s revenue forecast is based on more pessimistic economic assumptions
than forecasts from other organizations, such as the Congressional Budget Office
(CBO) or the Mortgage Bankers Association (MBA). Specifically, Amtrak
projects a 3 percent decline in real Gross Domestic Product (GDP) in FY 2009,
while CBO projects a 1.9 percent decline and MBA projects a 1.3 percent decline.
Amtrak also projects an unemployment rate of 9 percent, whereas both CBO and
MBA project a 7.7 percent rate.

Amtrak projects FY 2009 total operating expenses at $2,853.9 million,
$168.1 million less than originally forecasted. As was the case through December,
this decline primarily reflects lower fuel costs ($165.4 million below the original
forecast) and employee benefit costs ($21.9 million below the original forecast).

Significantly, Amtrak expects to end the year with a $115.3 million cash balance,
$32.1 million below the original forecast and $188.0 million below the cash
balance at the start of FY 2009. Amtrak plans to spend down its cash balance
largely due to two significant one-time expenditures: the $145.1 million
retroactive wage payment and $96 million to replace its third-party guarantors for
its defeased leases.


Amtrak’s FY 2009 Budget Does Not Include Any Operating Reform
Savings

Amtrak’s FY 2009 budget, which was prepared in calendar year 2008 before the
steep economic decline, does not include any new operational reforms intended to
improve Amtrak’s operating efficiencies and lower its Federal operating subsidies
(see figure 2 on the following page). This is a significant shift from Amtrak’s
initial efforts to implement operational reforms in FY 2006 when Amtrak far
exceeded its budgeted savings with $61.3 million in actual savings. However,
Amtrak did not meet its budgeted operational savings goals for both FY 2007 and
FY 2008, coming in $8.2 million short in FY 2007 and $2.6 million short in
FY 2008. Despite the annual decline, Amtrak’s overall cost savings has exceeded
expectations. Between FY 2006 and FY 2008, Amtrak budgeted $139 million in
operational reform savings, but actually earned $151.8 million.




CC-2009-042
                                                                                       6


                  Figure 2. Amtrak Operational Reform Savings
                Budget vs. Actual FY 2006 – FY 2009 ($ in millions)

            $75.0
                             $61.3      $61.0
                                                $52.8
            $50.0
  Savings




                                                        $40.3
                     $37.7                                      $37.7



            $25.0


                                                                          $0.0 $0.0
             $0.0
                     FY 2006            FY 2007         FY 2008           FY 2009
                                                                         (projected)

                                     Budgeted Savings   Actual Savings

Source: Amtrak.

According to Amtrak, a new strategic plan, which is under development, may
provide further guidance on the possibility for future operational reforms.

In addition to not taking any long-term operational reforms, Amtrak has not taken
any specific cost-cutting steps in response to the economic downturn. As a result,
Amtrak’s planned FY 2009 spending is substantially higher than its FY 2008
spending in a number of categories, including facilities, communications, and
office, which is 9.9 percent higher, and advertising and sales, which is 8.8 percent
higher.


Amtrak’s FY 2008 Operating Reform Savings Nearly Met Projections

Amtrak achieved $37.7 million in operational reform savings for FY 2008, $2.6
million short of its $40.3 million target. The shortfall occurred primarily in the
on-board WiFi, luxury charters, and engineering efficiencies reforms. Savings
from FY 2008 operational reforms are presented in table 2, enclosure 1, and
discussed in detail in enclosure 2.




CC-2009-042
                                                                                  7

Amtrak’s reform initiative to reduce costs and improve service quality saved
$14.7 million in FY 2008, slightly more than it was projected to save. This was
achieved through the higher than expected revenue increases on the NEC, which
offset the cancellation of the on-board WiFi and luxury charter services reforms.
The initiative to increase sales and distribution efficiencies achieved $4.3 million
in additional revenue, which was $3 million more than expected. The reform
initiative to enhance reliability and efficiency of mechanical services, which
focuses on the continued rollout of Amtrak’s Reliability Centered Maintenance
(RCM) program, achieved $0.5 million more in savings than expected.

Amtrak’s fourth reform initiative, which sought to improve management systems
and overhead efficiencies across departments, resulted in total savings of
$4.2 million in FY 2008, $0.2 million more than expected. Finally, Amtrak’s
initiative to achieve ongoing operating efficiencies resulted in $22.0 million in
savings in FY 2008, which is $2.2 million more than was expected. The savings
within this initiative made up 58.4 percent of Amtrak’s total FY 2008 operational
reform savings. However, Amtrak reported no savings in the unidentified
operating reforms category, despite initially committing to achieve $8.5 million in
additional savings in this category in FY 2008.


Amtrak Overstates Its FY 2009 Operating Subsidy Requirements

Amtrak is seeking a FY 2009 operating subsidy of $589 million, 24 percent more
than the FY 2008 level and the FY 2009 CR level. Based on our analysis, Amtrak
requires no more that $40 million above the CR level, primarily to reduce the
estimation risk associated with Amtrak’s revenue forecasts and to implement
Amtrak’s decision regarding its defeased leases. We based this conclusion on the
following.

First, our analysis indicated that Amtrak may have overestimated the amount of
cash it will require to have on-hand at the start of FY 2010. The FY 2010 cash
requirement is a primary driver of Amtrak’s FY 2009 funding requirement
because Amtrak plans to pay several one-time expenses, such as the defeased
leases, by spending down its large cash balance. This, it believes, will set a
$180 million cash on-hand requirement at the start of FY 2010. Based on
Amtrak’s actual performance over the past 5 years, its $115 million projected end-
of-year cash balance is minimally sufficient to meet its requirements entering
FY 2010. However, Amtrak based its need for a $180 million cash balance at the
start of FY 2010 on only 2 years of data, FYs 2007 and 2008, and did not include a
specific evaluation of FY 2010 actual needs. An examination of a broader set of
data (FYs 2004 through 2008) indicated that on average, Amtrak will require
much less cash on-hand to meet its first quarter FY 2010 needs (see figure 3).


CC-2009-042
                                                                                                   8


Second, shortly Amtrak will receive $1.3 billion of stimulus funds through the
recently enacted American Recovery and Reinvestment Act, which will provide it
liquidity in the short term. Amtrak must ensure that it spends $1.3 billion on
stimulus-related projects. However, Amtrak is not a Federal agency and, as such,
does not currently segregate its funds by source. Instead, Amtrak pays operating,
capital, and debt service bills as they come due from whatever cash is on hand at
the time, whether that be from self-generated revenues or Federal appropriations.
Similiarly, the stimulus funds will be cash available to Amtrak to pay bills as they
come due in the near term. Provided Amtrak prudently manages its cash flow, it
would be able to address any unforeseen liquidity concerns and spend the total
amount intended for stimulus projects. Third, Amtrak could take steps to further
improve its financial condition by reducing its planned increases in FY 2009
spending or implement operating reforms this year.

                     Figure 3. Amtrak Projected Cash Flow
                  1st and 2nd Quarters FY 2010 ($ in millions)

  $200

  $180

  $160

  $140

  $120

  $100

   $80

   $60

   $40

   $20

     $0
            October       November         December      January        February           March

                         2 Years of Data      5 Years of Data      $90 million Threshold


Source: OIG analysis of Amtrak data.

In conclusion, as a recipient of Federal operating subsidies, Amtrak should
continue to seek year-over-year operating efficiency improvements, rather than
rely only on Federal increased payments to bridge its funding needs. To
accomplish this, Amtrak should include these improvements in its forthcoming


CC-2009-042
                                                                                 9

strategic plan. In addition, Amtrak should ensure that management commitment
and corporate resources are dedicated to identifying specific strategic reforms and
identifying its plans for implementation of the reforms. A program management
structure that will provide an appropriate level of accountability and transparency
for the reforms.

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please contact me at (202) 366-1959 or
David Tornquist, Assistant Inspector General for Rail and Maritime Program
Audits and Economic Analysis, at (202) 366-1981.
Sincerely,



Calvin L. Scovel III
Inspector General
Enclosures (2)
cc:   Secretary of Transportation
      Chairman of Amtrak’s Board of Directors




CC-2009-042
                                                                          Enclosure 1



          Table 2. Summary of Amtrak’s Savings through September of FY 2008
                                   ($ in millions)*

                                                     Budgeted   Budgeted Actual
                                                                                   YTD
          Amtrak’s Net Operating Savings              FY 2008     YTD     YTD
                                                                                 Variance
                                                      Benefit    Benefit Benefit
Reform Initiatives
 1. Reduce Costs and Improve Service Quality           14.6       14.6      14.7     0.1
 NEC Service Improvements                               7.0        7.0       8.3     1.3
    NEC Acela Service Improvement                       4.0        4.0       6.0     2.0
    16th Acela Trainset                                 1.7        1.7       2.3     0.6
     Implement On-board Wi-Fi                           1.3        1.3       0.0    (1.3)
 Long-Distance Service Improvements                     4.3        4.3       3.6    (0.8)
    Coast Starlight Relaunch                            2.2        2.2       2.5     0.2
    Customer Service Improvement                        0.9       0.9        0.9     0.0
    Luxury Charter Services                             1.2       1.2        0.2    (1.0)
 Food and Beverage                                      3.3       3.3        2.9    (0.4)
    Redesign Equipment                                  1.5       1.5        1.0    (0.6)
    Gate Gourmet Contract                               1.8       1.8        1.9     0.1
 2. Increase Sales and Distribution Efficiencies        1.3       1.3        4.3     3.0
    e-Ticketing Customized Access                       1.3       1.3        4.3     3.0
 3. Enhance Reliability and Efficiency of
                                                       (8.1)      (8.1)    (7.6)        0.5
      Mechanical Services
    Reliability Centered Maintenance                   (8.3)      (8.3)    (7.6)     0.7
    Facility Consolidation                              0.2        0.2      0.0     (0.2)
 4. Improve Management Systems and Overhead
                                                       4.1        4.1       4.2         0.1
      Efficiencies
    Reduce Energy Costs                                 2.0        2.0      2.7      0.7
    On-Board Credit Card Automation                     2.1        2.1      1.5     (0.6)
 5. Achieve Ongoing Efficiencies                       19.8       19.8     22.0      2.2
    Fuel Use Management                                 0.1        0.1      4.6      4.5
    Engineering Efficiencies                            1.7        1.7     (3.1)    (4.8)
    Productivity Savings in Environmental,
                                                       18.0       18.0      20.5        2.5
    Transportation, and Mechanical Departments
Reform Initiatives’ Savings                            31.8       31.8      37.7     5.9
    Savings from Unidentified Business Initiatives      8.5        8.5       0.0    (8.5)
Total                                                  40.3       40.3      37.7    (2.6)
Source: Amtrak
*Note: Columns may not sum due to rounding.




        CC-2009-042
                                                                       Enclosure 2


Amtrak’s FY 2008 Operating Reform Savings Nearly Met Projections

In FY 2008, Amtrak achieved $37.7 million in operational reform savings, which
fell short of its $40.3 million target. The following sections provide details on
Amtrak’s FY 2008 initiatives through September 2008.

Reduce Costs and Improve Service Quality. The reform initiative to reduce
costs and improve service quality consists of three components—Northeast
Corridor (NEC) Service Improvement, Long-Distance Service Improvements, and
Food and Beverage Service restructuring. Amtrak saved $14.7 million through
this initiative, slightly more than it projected to save.

The NEC Service Improvement program generated greater revenues from Acela
service throughout FY 2008, despite setbacks. With the exception of Amtrak’s
stalled plans for implementing WiFi on Acela trains, Amtrak’s efforts to improve
customer service on the NEC achieved $8.3 million in additional revenues, which
is $1.3 million higher than expected for FY 2008.

Amtrak introduced a 16th Acela trainset to its operation in July 2007 to increase
service frequency and meet customer demand in the Northeast Corridor. This
reform generated $2.3 million in additional revenues through July of FY 2008,
which was $0.6 million higher than expected for the entire year. Amtrak last
reported on this initiative in July 2008. Amtrak also worked to improve customer
satisfaction, expand its customer base, and increase customer willingness to pay
premium fares on Acela by overhauling Acela’s first-class menu service, adding
leather seats in first class, and increasing its focus on customer service. It
attributed $6.0 million of its increased revenues for FY 2008 to these customer
satisfaction improvements.

Amtrak did not achieve any of the expected $1.3 million in operational savings for
its plans to provide Wi-Fi service on Acela trains in FY 2008. Amtrak cancelled its
previous contract and is currently testing service through a new service provider.
WiFi service is available in Amtrak stations.

Amtrak’s long distance service reforms picked up in the fourth quarter of
FY 2008. Despite falling $0.8 million short of its FY 2008 target for this program
($4.3 million), Amtrak’s long distance reforms earned $1.3 million in operational
savings in the fourth quarter alone. These reforms were projected to cut costs,
increase revenues, and terminate or restructure poor performing long distance
routes.




CC-2009-042
                                                                       Enclosure 2


The planned reforms for FY 2008 were to relaunch the Coast Starlight service as a
premium service, continue Amtrak’s focus on improving overall customer service,
and introduce luxury charter services.

The relaunch of the Coast Starlight, initially planned for March 2008, was delayed
until June 2008 due to track damage from mudslides in Oregon. However, in the
fourth quarter of FY 2008, this initiative generated $1.7 million in additional
revenue, which was 16 percent higher than budgeted. Although successful,
Amtrak has no plans to add premium service to other long distance routes for
FY 2009.

Beginning in April 2008, Amtrak placed customer service managers on five long
distance routes—the City of New Orleans, Southwest Chief, Crescent, Sunset
Limited, and Empire Builder—to improve customer service and boost passenger
ticket revenues. Amtrak attributed $0.9 million in increased revenues to this
initiative for FY 2008. Finally, as previously reported, GrandLuxe decided to
discontinue its luxury charter service in November 2007 after eight trips, because
it found the venture unprofitable.

Amtrak’s efforts to reduce food service costs earned lower than expected savings
in FY 2008. Amtrak reported a savings of $2.9 million in FY 2008 through this
program which was $0.4 million less than originally budgeted. This shortfall was
driven by problems with Amtrak’s plan to combine dining and lounge cars on
certain long distance routes. Specifically, Amtrak attempted to reform its food and
beverage service in FY 2008 by deploying combined dining and lounge cars on
certain routes, and renegotiating a more cost-effective contract with its food
service provider.

Because of greater than expected ridership in FY 2008, Amtrak revised its original
plans to deploy superliner dining/lounge cars on some of the routes originally
selected for this initiative. For example, on certain routes, the combined cars did
not offer enough space for both passenger seating and food service needs in peak
periods of ridership. Consequently, Amtrak delayed its plans for the Texas Eagle,
and cancelled its original plans for the Sunset Limited. Both routes continue to
have high levels of ridership, but deploying combined dining/lounge cars may
negatively impact Amtrak’s customer service.            In September 2008, the
dining/lounge equipment modified for operation on the Sunset Limited was
reassigned to operate on the Capitol Limited as a diner in conjunction with a
separate lounge car.




CC-2009-042
                                                                         Enclosure 2


Amtrak deployed a single dining/lounge car on the City of New Orleans (CONO)
as planned in October 2007. However, higher than expected ridership on the
CONO required Amtrak to add more food service employees to handle demand.
This increase in labor costs reduced the anticipated cost savings for this route,
despite generating additional food and beverage sales revenues. Because of these
setbacks to the original plan, Amtrak’s cost savings were $0.6 million less than
expected.

In contrast, Amtrak saved $1.9 million in FY 2008, slightly more than forecast,
through its renegotiated contract with on-board food service provider, Gate
Gourmet. However, Amtrak established a new contract with a different food
service provider, Aramark. The transition from Gate Gourmet to Aramark was
completed in December 2008. With the change in food provider, Amtrak forecasts
an additional $2.0 million in annual cost savings.

Increased Sales and Distribution Efficiencies. This initiative focuses on
e- ticketing, specifically facilitating ticket sales online, improving sales-related
customer service, reducing ticketing-related administrative costs, and
implementing demand-based pricing. Amtrak has already implemented aspects of
this initiative, such as reducing call center costs, and establishing an international
travel agency website to facilitate foreign ticket sales, which was launched in
March 2007. In FY 2008, Amtrak earned $4.3 million in additional revenue,
which is $3.0 million more than expected. As part of its e-ticketing program, in
FY 2009, Amtrak plans to initiate a print@home ticketing pilot program and to
allow Sabre Travel agents to issue Amtrak e-tickets.

Enhance Reliability and Efficiency of Mechanical Services. This initiative
focuses on the continued rollout of Amtrak’s Reliability Centered Maintenance
(RCM) program. The program seeks to reduce maintenance costs, improve
equipment reliability, and increase revenues by increasing the operational
availability of cars and locomotives while simultaneously improving their
reliability. The early success in implementing RCM validated, standardized
maintenance procedures on Acela led Amtrak to broaden the scope of the program
beyond Acela equipment. Throughout FY 2008, Amtrak’s review and revision of
planned maintenance requirements for locomotives and Amfleet cars progressed
ahead of schedule, creating the potential for cost efficiencies beyond expectations.
For FY 2009, Amtrak plans to implement the results of analyses performed during
2008 on locomotives, Amfleet cars, and other car fleets.

The implementation of Amtrak’s RCM program requires significant direct costs,
including design and implementation consulting fees. Amtrak expects the same
level of direct costs for the RCM program in FY 2009 as occurred in FY 2008.
However, by increasing equipment operational availability, RCM generates


CC-2009-042
                                                                         Enclosure 2


additional revenues that are reflected in Amtrak’s other initiative areas; and by
improving equipment reliability, it improves Amtrak’s on-time performance
(OTP) and customer satisfaction. The revenue gains from RCM are reflected
under the Reduce Costs and Improve Service initiative. Therefore, the savings for
this initiative are recorded as a loss of $7.6 million for FY 2008, $0.5 million less
than Amtrak expected to lose. However, Amtrak expects to see increased cost
savings from RCM’s improvements to Amtrak’s planned maintenance program in
FY 2009, because of reduced costs for materials and labor based on streamlined
maintenance requirements and efficient maintenance procedures.

Amtrak continues to look        for cost saving opportunities through facility
consolidation. Any savings      from facility consolidation are reflected in the
productivity savings in the     Environmental, Transportation, and Mechanical
Departments program under       the Achieve Ongoing Efficiencies initiative, as
discussed below.

Improve Management Systems and Overhead Efficiencies. This initiative
consists of two programs—reduced energy costs and improved on-board credit
card automation, which resulted in total savings of $4.2 million in FY 2008. The
program to reduce energy costs relies on negotiating more cost-effective contracts,
ensuring accurate billing, and reducing unnecessary usage, which have resulted in
net savings of $2.7 million in FY 2008, $0.7 million higher than expected, despite
sharp fluctuations in fuel and utility costs in the third and fourth quarters of
FY 2008.

The goal of the on-board credit card automation program is to increase revenues
and reduce costs by facilitating customer use of credit cards and by automating
other related processes. Amtrak attributed $1.5 million in revenue enhancements
and cost savings in FY 2008 to this program, $0.6 million less than projected.
Amtrak reported that the conductor sales portion of the project delayed to the first
half of FY 2009 so that technological improvements can be implemented. The
conductor sales portion of this project equals $1.4M of the budgeted savings of
$2.1 million. The portion of this project that was not delayed was $0.7 million
higher than expected.

Achieve Ongoing Efficiencies. The initiative to achieve ongoing efficiencies
consists of three programs—engineering efficiencies, fuel use management, and
productivity savings in the Environmental, Transportation, and Mechanical
Departments. Overall, this initiative resulted in total savings of $22.0 million in
FY 2008, which is $2.2 million more than was expected. The savings within this
initiative made up 58.4 percent of Amtrak’s total FY 2008 operational and cost
savings.



CC-2009-042
                                                                        Enclosure 2


The engineering efficiencies program focuses on increasing the productivity and
reducing the costs of the engineering workforce. However, this program lost
$3.1 million in FY 2008, which was $4.8 million less in savings than was
projected. Amtrak attributed the drop in savings to increased labor costs from its
recent labor settlement, other wage expenses, and increased need for rail tie
inspections. To save fuel in FY 2008, Amtrak applied informal operating and
managerial techniques and hired an instructor to train its employees on how to
incrementally save fuel. As a result, Amtrak attributed $4.6 million in fuel savings
to this program in FY 2008.

Finally, throughout FY 2008, Amtrak sought to contain cost growth in the
Environmental, Transportation, and Mechanical Departments through productivity
improvements, management of hiring, and other savings. Amtrak applied a 2-
percent reduction in total of core salaries, straight time wages, and overtime in
these departments, compared to its May 2007 forecast of the FY 2008 budget.
This program saved $20.5 million in FY 2008, which was $2.5 million more than
budgeted. Amtrak also implemented productivity improvements, such as
identifying and eliminating unnecessary positions, holding positions open longer
when additional man-hours were not immediately needed, and implementing
changes in workload and increasing management’s focus on non-labor related
costs, such as fuel use and materials.




CC-2009-042
Addendum: The following table contains information contained in graphs
(Figures 1, 2, and 3) in this document. This information was not a part of
the original document but has been added here to accommodate assistive
technology.

Figure 1. Amtrak Actual vs. Budget FY 2009 Operating Loss
($ in millions)

                Forecast       Budget
October             (28.4)        (31.4)
November            (42.3)        (61.6)
December            (82.2)       (107.6)
January            (154.2)       (178.3)
February           (218.1)       (240.2)
March              (255.9)       (278.7)
April              (298.0)       (316.6)
May                (332.6)       (347.1)
June               (357.1)       (364.9)
July               (389.5)       (390.3)
August             (424.0)       (423.0)
September          (476.0)       (475.0)


Figure 2. Amtrak Operational Reform Savings
Budget vs. Actual FY 2006 – FY 2009 ($ in millions)

                     Budgeted              Actual
                     Savings               Savings
FY 2006                            37.7              61.3
FY 2007                             61               52.8
FY 2008                            40.3              37.6
FY 2009
(projected)                           0                0


Figure 3. Amtrak Projected Cash Flow
1st and 2nd Quarters FY 2010 ($ in millions)

              2 Years of       5 Years of       $90 million
              Data             Data             Threshold
October                $115             $115                  $90
November                 $62              $91                 $90
December                 $51            $109                  $90
January                $185             $167                  $90
February                 $77            $113                  $90
March                  $102             $114                  $90




CC-2009-042
